Report No. D-2010-049                April 1, 2010




    U.S. Army Corps of Engineers' Use of Award Fees on
             Contracts in Iraq and Afghanistan
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACA                           Army Contracting Agency
AFARS                         Army Federal Acquisition Regulation Supplement
AFDO                          Award Fee Determining Official
AFEB                          Award Fee Evaluation Board
AFP                           Award Fee Plan
COR                           Contracting Officer Representative
CPAF                          Cost-Plus-Award-Fee
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
GRD                           Gulf Region Division
IDIQ                          Indefinite-Delivery, Indefinite-Quantity Contracts
TAC                           Transatlantic Programs Center
USACE                         U.S. Army Corps of Engineers
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON , VIRG INIA 22202-4704 





                                                                              April 1,2010

MEMORANDUM FOR COMMANDER, U.S. ARMY CORPS OF ENGINEERS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 U.S. Army Corps of Engineers' Use of Award Fees on Contracts in Iraq and
           Afghanistan (Report No. D-20 I 0-049)

We are providing this report for review and comment. This audit was conducted pursuant to
the requirements of Public Law I 10-181, the FY 2008 National Defense Authorization Act,
section 842. We considered management comments on a draft of the report in preparing the
final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. We
received comments from the Director, National Contracting Organization, Headquarters,
U.S. Army Corps of Engineers, in coordination with the Principal Assistant Responsible
for Contracting-Winchester, on the reconunendationll1ade in this report. The conunents
on the recommendation were not responsive. Therefore, we request additional cOllunents
on that recolllmendation from the Principal Assistant Responsible for Contracting­
Winchester by May 3, 2010. You should also comment on the internal control weaknesses
di scussed in the report.

Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the ISignedl symbol in place ofthe actual
signature.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-049 (Project No. D2008-D000AE-0251.000)                         April 1, 2010

           Results in Brief: U.S. Army Corps of Engineers’
           Use of Award Fees on Contracts in Iraq and
           Afghanistan

What We Did
Our overall objective was to determine whether          As a result, TAC contracting officers and award
award fees paid by the U.S. Army Corps of               fee personnel awarded fees, totaling
Engineers Transatlantic Programs Center (TAC)           approximately $20.6 million, without sufficient
to contractors in support of operations in Iraq         support, justification, or assurance that
and Afghanistan were justified. Specifically, we        contractors were paid award fees commensurate
evaluated procedures used by TAC for                    with their level of performance.
determining and awarding fees on 15 task orders
worth about $116.4 million. This audit is in            What We Recommend
response to the National Defense Authorization          We recommend that the Director, National
Act for FY 2008.                                        Contracting Organization, Headquarters, U.S.
                                                        Army Corps of Engineers, in coordination with
What We Found                                           the Principal Assistant Responsible for
TAC contracting and award fee officials did not         Contracting–Winchester, establish standard
properly manage and oversee the award fee               operating policies and procedures for
process for the 15 CPAF task orders reviewed,           administering an effective award fee process in
valued at $116.4 million. Specifically, officials       accordance with the Federal Acquisition
did not:                                                Regulation or adopt the procedures suggested in
                                                        the Army Contracting Agency Award Fee
                                                        Contracts Handbook.
      develop adequate award fee plans for
       incentivizing and evaluating contractor
       performance,                                     Management Comments and
      adequately conduct oversight and                 Our Response
       evaluation responsibilities, or                  The Director, National Contracting
      adequately document and support award            Organization, Headquarters, U.S. Army Corps
       fee ratings.                                     of Engineers, in coordination with the Principal
                                                        Assistant Responsible for Contracting–
This occurred because USACE did not have                Winchester, provided comments on the
policies and procedures for administering award         recommendation. The comments were not
fees consistently and in accordance with Federal        responsive, and we request additional comments
Acquisition Regulation (FAR) requirements. In           in response to the final report. Please see the
addition, USACE did not adopt Army best                 recommendation table on the back of this page.
practices documented in the Army Contracting
Agency (ACA) Award Fee Contracts
Handbook.




                                                    i
Report No. D-2010-049 (Project No. D2008-D000AE-0251.000)               April 1, 2010

Recommendation Table

                  Management                         Recommendation    No Additional
                                                    Requires Comment    Comments
                                                                         Required
Director, National Contracting Organization,              Yes
Headquarters, U.S. Army Corps of Engineers
Principal Assistant Responsible for Contracting-          Yes
Winchester

Please provide comments by May 3, 2010.




                                               ii
Table of Contents


Introduction                                                   1


      Objectives                                               1

      Background                                               1

      Review of Internal Controls                              2


Finding. Award Fee Contract Management                         3



      Recommendation, Management Comments, and Our Response   10 


Appendix

      Scope and Methodology                                   13 

             Prior Coverage                                   15 


Glossary                                                      16     


Management Comments


      U.S. Army Corps of Engineers                            19 

THIS PAGE LEFT INTENTIONALLY BLANK


Introduction
Objectives
The overall objective was to determine whether award fees paid by the U.S. Army Corps
of Engineers (USACE) Transatlantic Programs Center (TAC) to contractors in support of
operations in Iraq and Afghanistan were justified. See the Appendix for a discussion of
the scope and methodology and for prior coverage related to the audit objectives.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

Background
U.S. Army Corps of Engineers, Transatlantic Programs Center
Headquartered in Winchester, Virginia, TAC,1 a subordinate activity of USACE, is
responsible for providing engineering, construction, and contracting services to the U.S.
Central Command. The U.S. Central Command is a unified command with geographic
responsibility for U.S. interests in 20 countries throughout the Middle East, the Gulf
Region, and Central Asia. TAC also provides project management and technical and
contracting support to the Gulf Region District (GRD) and the Afghanistan Engineer
District located in Iraq and Afghanistan.

TAC Contracts
In January 2004, TAC awarded contracts W912ER-04-D0001 through W912ER-04-
D0010 as indefinite-delivery, indefinite-quantity (IDIQ) contracts for construction-related
services throughout the U.S. Central Command area of responsibility. Each contract was
for a base year and up to 4 option years with a total potential value of $1.5 billion. From
these contracts, we selected 15 cost-plus-award-fee (CPAF) task orders in Iraq and
Afghanistan totaling approximately $116.4 million to review. For specific details
regarding the task orders reviewed, see the Appendix. For definitions of award fees and
other contracting terms, see the Glossary.




1
  On October 2, 2009, the U.S. Army Corps of Engineers designated the Transatlantic Programs Center as
the Middle East District, subordinate to the newly established Transatlantic Division.


                                                   1

Cost-Reimbursement Contracts
The IDIQ contracts allowed TAC contracting officers to issue task orders on a firm-
fixed-price or cost-reimbursement contract basis. Under a cost-reimbursement contract,
the Government reimburses the contractor up to the amount originally estimated for
allowable costs reasonably incurred during the performance of the contract. A CPAF
contract is a cost-reimbursement contract with an estimated cost and a fee provision. The
fee is broken down into a base amount and an award amount paid to the contractor based
on performance.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the award fee process at TAC. TAC did not have adequate procedures in
place to administer and provide oversight of award fee contracts. Specifically, TAC did
not establish procedures to:

       develop adequate award fee plans (AFPs) for incentivizing and evaluating
        contractor performance,
       perform key award fee oversight and evaluation functions, or
       adequately document and support award fee ratings.

Implementing the recommendation in this report will improve the internal controls over
the award fee process. We will provide a copy of the report to the senior officials
responsible for internal controls at USACE Headquarters.




                                             2

Finding. Award Fee Contract Management
TAC contracting officers and award fee personnel did not properly manage and oversee
the award fee process for the 15 CPAF task orders reviewed, valued at $116.4 million.
Specifically, contracting officers and award fee personnel did not:

      develop adequate AFPs for incentivizing and evaluating contractor performance,
      adequately perform key award fee functions to include contract oversight and
       evaluation, or
      adequately document and support award fee ratings.

TAC contracting officers and award fee personnel did not properly execute and oversee
the award fee process because USACE did not have policies and procedures for
administering award fees consistently and in accordance with Federal Acquisition
Regulation (FAR) requirements. In addition, USACE did not adopt Army best practices
documented in the Army Contracting Agency (ACA) Award Fee Contracts Handbook
even though this handbook provided detailed instructions for implementing an effective
award fee program. As a result, TAC contracting officers and award fee personnel
awarded fees, totaling approximately $20.6 million, without sufficient support,
justification, or assurance that contractors were paid award fees commensurate with their
level of performance.

Award Fee Process
The award fee evaluation and determination process, as suggested in the ACA Handbook
(Handbook) and shown in the following figure, is a continuous process that begins with
Government personnel evaluating contractor performance. The contracting officer
typically appoints or designates onsite representatives or performance monitors to
evaluate and report on contractor performance. An Award Fee Evaluation Board (AFEB)
uses these reports, along with contractor self-assessments, to evaluate the contractor’s
overall performance and make an award fee recommendation to the award fee
determining official (AFDO). The AFDO makes the final determination regarding the
award fee earned and payable for each evaluation period and signs the award fee
determination letter for the evaluation period, specifying the award fee earned and the
basis for that determination.




                                            3

                               The Award Fee Evaluation Process




Guidance for Managing and Overseeing the Award Fee
Process
Federal Acquisition Regulation
FAR 16.405-2,2 “Cost-Plus-Award-Fee Contracts,” states that the amount of the award
fee to be paid is determined by the Government’s evaluation of the contractor’s
performance in terms of the criteria stated in the contract. FAR 16.405-2(b)(2) also states
that the evaluation criteria and the rating plan should motivate the contractor to improve
performance in the rated areas. The FAR recognizes that the number of evaluation
criteria and the requirements they represent differ by contract.

Defense Federal Acquisition Regulation Supplement
Defense Federal Acquisition Regulation Supplement (DFARS) Procedures, Guidance,
and Information 216.405.2 states that an award fee normally is not earned when the fee-
determining official has determined that contractor performance has been submarginal or


2
 The audit team used a version of FAR 16.405-2 that was still current as of June 2009 to conduct this audit.
On October 14, 2009, the Civilian Agency Acquisition Council and the Defense Acquisition Regulations
Council (FAR Councils) issued an interim rule in FAR Case 2008-008 that revises language governing
award fee incentive contracts in FAR part 16. The interim rule implements Public Law 109-364, the
FY 2007 National Defense Authorization Act, section 814; Public Law 110-417, the FY 2009 National
Defense Authorization Act, section 867; and the Office of Federal Procurement Policy guidance
memorandum, “Appropriate Use of Incentive Contracts,” December 4, 2007. The October 2009 revision
did not affect the results of our audit.



                                                     4

unsatisfactory. The guidance also states that the basis for all award fee determinations
shall be documented in the contract file.

Army Federal Acquisition Regulation Supplement
Army Federal Acquisition Regulation Supplement (AFARS) 5116.405-2, “Cost-
Plus-Award-Fee Contracts,” states that once the decision to use an award fee contract is
made, an evaluation plan and an organizational structure for administering the award fee
process should be tailored to the acquisition. It states that the plan must clearly identify
the specific award fee evaluation criteria for assessing contractor performance and
specifies that contractors should not receive award fees simply for meeting contract
requirements. AFARS further requires that when an AFEB is used in the award fee
process, the Principal Authority Responsible for Contracting or authorized contracting
officer must appoint an AFDO in writing. The AFDO then should appoint in writing the
AFEB and its chairperson. These written appointment letters should clearly outline the
AFEB and chairperson’s responsibilities and constraints. AFARS goes on to state that
AFEB membership should consist of contracting and acquisition management personnel,
including contract administration personnel with knowledge of contract requirements and
contractor performance in the areas being evaluated. Documentation must be prepared to
support the AFEB and AFDO decisions.

Army Contracting Agency Handbook
Although not an authoritative source, the ACA Handbook, published in September 2003,
provides information and guidance for developing and administering award fee-type
contracts. The Handbook presents ACA practices and procedures for using award fee
contracts in general and reflects current practices of the Army acquisition community.
Specifically, the Handbook addresses the following:

              developing AFPs,
              establishing evaluation criteria,
              rating contractor performance,
              establishing roles and responsibilities of award fee personnel,
              maintaining records of contractor performance, and
              ensuring an audit trail to substantiate and support award fee
               recommendations and decisions.




                                             5

Management of Cost-Plus-Award-Fee Task Orders
TAC contracting officers and award fee personnel did not properly manage and oversee
the award fee process for the 15 CPAF task orders that we reviewed. Specifically,
contracting officers and award fee personnel did not develop adequate AFPs for
incentivizing and evaluating contractor performance; did not perform key award fee
functions including contract oversight and evaluation; and did not maintain sufficient
documentation and support for contractor award fee ratings.

Adequate Award Fee Plans
The AFP articulates, in one document, the plan and the means for evaluating contractor
performance and determining award fee ratings. The AFP should be unique to contract
requirements so that the contractor is focused and motivated to perform well in areas
deemed most important to the Government. The AFP should also identify the
organizational structure required to administer the award fee provisions of the contract.

Tailored Evaluation Criteria
TAC contracting officials did not develop adequate AFPs. Specifically, TAC contracting
officials did not develop criteria to evaluate contractor performance that were tailored to
the individual circumstances of the procurement, as required by AFARS. Instead, TAC
contracting officials established criteria that were vague and not measureable. For
example, TAC established criteria that were intended to evaluate the contractors’ efforts
to control cost; however, the criteria that TAC established did not address acquisition
outcomes such as meeting cost goals. The cost control criteria were overly general and
included undefined terms such as “effectiveness,” “timeliness,” “completeness,” and
“reasonableness.”

TAC officials’ use of general evaluation criteria that were vague and not measureable
made it difficult for performance monitors to provide meaningful performance feedback
and evaluations to support ratings. Without meaningful feedback, performance monitors
may have awarded inappropriate fees to contractors because there was no basis for
determining whether the contractors fell short, met, or exceeded performance
expectations. Accordingly, TAC officials need to tailor evaluation criteria in the AFPs to
the requirements of individual task orders and develop criteria that are measureable so
performance evaluators can provide meaningful comments and ratings to ensure that
award fee payments to contractors reflect the level of performance.

Award Fee Rating Structure
TAC contracting officials did not develop AFPs that effectively incentivized contractors
to perform above contract requirements as required by the FAR. Specifically, TAC
implemented a rating structure that did not promote contractor performance beyond the
basic requirements of the task order. The AFPs included an adjectival rating structure3


3
  An adjectival rating is one where adjectives such as excellent, very good, good, fair, and poor are used to
indicate the degree to which the contractor’s performance has met the standard for each factor evaluated.
Adjectival ratings can be employed independently or in connection with other rating systems.


                                                      6

that evaluation personnel were to use to describe contractor performance in a narrative
format based on the overall weighted points assigned by the evaluators. According to the
rating structure outlined in the AFPs, a contractor would earn a rating of superior for a
score of 96 to 100; excellent for a score of 86 to 95; good for a score of 76 to 85; fair for
a score of 66 to 75; poor for a score of 55 to 65; and unsatisfactory for a score of 0 to 54.
As a result, contractors could be paid up to 75 percent of the available award fee for fair
performance or meeting contract requirements in the statement of work.4

Key Award Fee Functions
TAC contracting and award fee personnel did not perform key award fee functions,
including contract oversight and evaluation. Specifically, TAC contracting and award fee
officials did not establish an organizational structure for administering the award fee
process. AFARS dictates that the organizational structure be appropriate for the
complexity of each task order to help ensure that key award fee functions such as contract
oversight and evaluation are conducted. For the 15 task orders we reviewed, not a single
AFP identified key personnel responsible for the award fee process or specified the roles
and responsibilities for executing and administering the award fee process. As a result,
contracting officer representatives (CORs) and performance monitors were not always
assigned to oversee contract performance. Specifically, TAC contracting and award fee
personnel did not assign CORs or performance monitors to 8 of the 15 task orders we
reviewed. COR and performance monitor responsibilities include conducting
assessments in accordance with the contract terms and AFP and documenting contractor
performance in assigned evaluation areas. Documentation must include examples of
contractor performance that is below, meets, or exceeds contract requirements. CORs
and performance monitors who evaluate and document contractor performance are
critical in supporting and making award fee determinations. For five of the eight task
orders that had no CORs or performance monitors, the AFEBs did not receive award fee
input from onsite Government personnel.

Documentation and Justification of Award Fee Ratings
DFARS requires that award fee determination documentation be maintained in the
contract file; however, TAC and GRD contracting and award fee personnel did not have
adequate documentation to support award fee determinations. In general, the
documentation needed to support award fee determinations includes performance monitor
or COR evaluations, AFEB rating recommendations, and AFDO award fee
determinations. The following table shows that award fee documentation was inadequate
for all 38 evaluation periods. Documentation was incomplete or not available for 16 of
the 38 evaluation periods we reviewed on the 15 task orders. The documentation for the
remaining 22 award fee evaluation periods did not adequately support award fee ratings
determined by rating officials.


4
 A policy memorandum issued by the Under Secretary of Defense for Acquisition, Technology, and
Logistics, “Proper Use of Award Fee Contracts and Award Fee Provisions,” April 24, 2007, addresses the
use of adjectival ratings and the amount of award fee that a contractor can earn. It states that, for
solicitations issued after August 1, 2007, no more than 50 percent of the available award fee can be earned
for meeting the basic requirements of the contract.


                                                     7

                         Justification of Award Fee Ratings
              Documentation                       Evaluations Reviewed

                                                  Number       Dollar Value       Percentage
                                                                                   of Dollar
                                                                                    Value
Complete and justifies award fee rating                0      $            0.00           0.00
Complete but does not justify award fee rating        22          19,937,766.62          96.73
Incomplete                                             8             674,783.59           3.27
Not available                                          8                   0.00           0.00
   Total                                              38      $ 20,612,550.21          100.00



The documentation used to support award fee rating recommendations to the AFEB for
use in determining award fees was inadequate because CORs and performance monitors
did not justify recommended award fee ratings. For example, on contract W912ER-04-
D-0004, task order 12, TAC provided a single field evaluation report from an unknown
source to support the award fee determination process. The field evaluation report stated
that the contractor was significantly behind schedule in the design and construction of
one vehicle service center. Despite the slip in schedule, the report showed that the
contractor was rated at 90 percent for the “Adherence to Schedule” subfactor in the AFP.
The report did not include an explanation or basis for the high performance rating that
was recommended to the AFEB. In another instance, on contract W912ER-04-D-0004,
task order 17, three CORs prepared contractor performance evaluations. Two of the three
evaluators provided ratings without narrative support, and the third provided numerical
ratings and a one-sentence explanation to support his rating recommendations to the
AFEB.

AFEB recommendations to the AFDO were also insufficient to support award fee ratings.
Specifically, on contract W912ER-04-D-0010, task order 3, the AFEB recommended an
award fee rating of 96.7 percent to the AFDO and referenced the performance reports
provided by the end users in the field. Not only were those performance reports
inadequate for supporting the award fee recommendation, but the AFEB recommendation
letter did not provide any explanation as to what the contractor had done to earn the high
rating. The letter merely stated that field users had commented that the contractor was
quick to resolve problems raised in performance reports and that the contractor showed
commitment to making the Army’s involvement in Iraq a success. The support in the
letter for the high performance rating did not directly relate to the criteria identified in the
AFP, which the AFEB should have used as the basis for rating the contractor’s
performance.

Without sufficient COR or performance monitor evaluations and documentation of
contractor performance, the AFEBs and AFDOs were limited in their ability to fairly and
accurately assess contractor performance to justify and support their award fee ratings.
Accordingly, contracting officers need to ensure that contract files are maintained, and




                                                 8

that the documentation provided by award fee personnel contains narrative support and
performance justification to support their award fee recommendations.

Need for Award Fee Guidance
TAC contracting officers and award fee personnel did not properly manage and oversee
the award fee process because USACE officials had not developed contracting policies
and procedures that implement FAR requirements for administering award fees. In
addition, USACE officials did not follow relevant Army award fee guidance because they
stated that they were not required to follow that guidance. The FAR does not provide a
level of detail necessary for executing award fee contracts in practice. Though not an
authoritative source, the ACA Handbook provides additional information and guidance
for developing and administering award fee contracts and reflects current best practices.
To ensure the consistent application of award fee contracting practices and procedures
throughout TAC, USACE officials at Headquarters and TAC should develop detailed
award fee guidance or officially adopt Army award fee guidance in the ACA Handbook
as their own.

Conclusion
Because USACE did not have policies and procedures for administering award fees, TAC
contracting officers and award fee personnel did not properly manage and oversee the
award fee process for the 15 CPAF task orders reviewed. Award fees can serve as a
valuable tool to help control risk and encourage exceptional contractor performance.
However, to obtain these advantages, TAC officials must first implement an effective
award fee process, which begins with the development of contracting policies and
procedures for award fee contracting. Lacking such a process, TAC contracting and
award fee personnel awarded approximately $20.6 million without sufficient support,
justification, and assurance that they received the benefit of exceptional performance
from contractors.




                                           9

Recommendation, Management Comments, and Our
Response
Revised Recommendation
 As a result of management comments, we revised the draft Recommendation to clarify
the nature of the actions needed to address internal control weaknesses in the award fee
process.

We recommend that the Director, National Contracting Organization,
Headquarters, U.S. Army Corps of Engineers, in coordination with the Principal
Assistant Responsible for Contracting – Winchester, develop detailed standard
operating policies and procedures for administering an effective award fee process
in accordance with the Federal Acquisition Regulation or adopt the procedures
suggested in the Army Contracting Agency Award Fee Contracts Handbook. The
policies and procedures should, at a minimum, address:

          the development of AFPs that are adequate for motivating and overseeing
           contractor performance,
          key award fee functions for properly overseeing and evaluating award fee
           contracts, and
          the documentation needed to support award fee ratings.


Principal Assistant Responsible for Contracting-Winchester
Comments
The Principal Assistant Responsible for Contracting–Winchester, in coordination with the
Director, National Contracting Organization, partially agreed with the recommendation.
The Principal Assistant stated that USACE has policy and training in place to properly
administer an award fee contract. The Principal Assistant also stated that, in December
2007, USACE issued Procurement Instruction Letter 2008-03, “Proper Use of Award Fee
Contracts and Award Fee Provisions,” which established policies and procedures for
administering the award fee process. The Principal Assistant also stated that she is
revising the Procurement Instruction Letter to include a requirement for a cost-benefit
analysis before the award of a CPAF contract; a determination that adequate resources
are available to properly administer CPAF contracts; and training for award fee board
members and the AFDO. See the Management Comments section for complete text of the
comments.

Our Response
The Principal Assistant comments were not responsive to the recommendation because
they did not indicate that she would develop detailed standard operating procedures for
administering an effective award fee program. During the audit, we reviewed the FAR,
AFARS, and DFARS guidance applicable to award fee contracts and determined that
none of these documents provided the level of detail needed to effectively administer



                                            10 

award fee contracts in practice. We also reviewed USACE Procurement Instruction
Letter 2008-03, which implemented the April 24, 2007, Defense Procurement and
Acquisition Policy memorandum, “Proper Use of Award Fee Contracts and Award Fee
Provisions,” and the March 29, 2006, Under Secretary of Defense for Acquisition,
Technology, and Logistics memorandum, “Award Fee Contracts.” We determined that
the Procurement Instruction Letter, too, was insufficient for managing award fee
contracts. Although the Principal Assistant stated that she intends to revise the
Procurement Instruction Letter to establish requirements for a cost-benefit analysis and
for determining the availability and adequacy of resources, the revisions will not include
standard operating policies and procedures or best practices as outlined in the Handbook
for overseeing and administering an award fee contract once awarded.

As a result of the comments, we revised the recommendation to state that the National
Contracting Organization and the Principal Assistant should implement procedures,
processes, and instructions such as those outlined in the ACA Award Fee Contracts
Handbook, September 2003. The ACA Handbook contains guidance and best practices
related to the following areas:

          developing and implementing an effective AFP;
          establishing evaluation criteria;
          rating and scoring contractor performance;
          developing the recommended award fee; and
          identifying essential award fee personnel, their roles and responsibilities in the
           award fee process, and documentation requirements.

By developing guidance similar to that in the ACA Handbook or by implementing the
handbook, the Principal Assistant can correct weaknesses found in the administration of
award fee contracts at TAC. We request that the Director, National Contracting
Organization, and the Principal Assistant Responsible for Contracting–Winchester review
these comments as well as the revised report recommendation and provide additional
comments in response to the final report.




                                            11 

THIS PAGE LEFT INTENTIONALLY BLANK 





                12 

Appendix. Scope and Methodology
We conducted this performance audit from July 2008 through December 2009, in accordance
with generally accepted government auditing standards. Those standards required that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our finding and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objectives.

We limited our scope to CPAF task orders that USACE TAC awarded for goods and services
acquired for operations in Iraq and Afghanistan. Specifically, USACE TAC had a universe of 10
contracts with award fee-type contract actions awarded during FYs 2004 and 2007. We non-
statistically selected 15 CPAF task orders from 5 contracts, valued at $116.4 million, for review.
The scope of our review addressed contracting actions pertaining to the development of the
award fee plan and the award fee evaluation and determination processes. We did not review the
adequacy of competition and contract award decisions. See the table on the next page for a
summary of the task orders reviewed.

To review the procedures for properly allocating and awarding fees on contracts, we interviewed
officials at TAC and GRD who were responsible for contract administration and award fee
evaluations and determinations. To review original contract documentation, we visited USACE
TAC in Winchester, Virginia, and USACE GRD in Iraq.

We reviewed official contract files for the 15 task orders to determine the contracting officers’
support for award fee determinations. The documentation that we reviewed dated from
January 2004 to January 2009. Specifically, to determine whether the award fee process was
followed and whether award fee determinations were supported, we reviewed award fee
documents including COR, AFEB, and AFDO appointment letters; AFPs; COR and performance
monitor evaluations and their supporting documentation; AFEB minutes and recommendations;
and AFDO determinations. We also reviewed Federal, DOD, and Department of the Army
regulations and guidance regarding use of award fee contracts.




                                                13 

                                        TAC IDIQ Task Orders Reviewed
       Contract Number                           Contractor             Task                              Total Value
                                                                       Orders                             (in millions)
  W912ER-04-D-0003                        Contrack International, Inc.   1                                         $ 4.29
       Task Order 0014

  W912ER-04-D-0004                           Fluor Intercontinental, Inc.                    7                         95.12
       Task Order 0005
       Task Order 0007
       Task Order 0009
       Task Order 0012
       Task Order 0014
       Task Order 0017
       Task Order 0018

  W912ER-04-D-0005                           Kellogg, Brown, and Root                        2                           3.60
       Task Order 0006                             Services, Inc.
       Task Order 0010

  W912ER-04-D-0007                              Parsons Delaware, Inc.                       1                           4.82
       Task Order 0002

  W912ER-04-D-0010                        Washington International/Black                     4                           8.57
       Task Order 0002                      & Veatch – Joint Venture
       Task Order 0003
       Task Order 0006
       Task Order 0009

                Total                                                                       15                      $116.40
Note: The total value is the task order’s base amount. We did not include contract modifications and additional award fees in the
total value because documentation available at TAC and GRD was insufficient to compile the data.


Use of Computer-Processed Data
For the 15 task orders we reviewed, we relied on the data contained in the contracting files and
obtained from interviews to support the finding and conclusions in this report. We used
computer-processed data obtained from the Federal Procurement Data System–Next Generation
only to identify CPAF task orders awarded by USACE TAC with work being performed in Iraq
and Afghanistan. We used the universe of CPAF tasks orders awarded by USACE TAC to select
a sample of 15 CPAF task orders for review. We did not assess the reliability of the data from
the Federal Procurement Data System–Next Generation because its use did not materially affect
the finding, conclusions, or recommendation in the report.




                                                              14 

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Air Force Audit
Agency, and the Special Inspector General for Iraq Reconstruction (SIGIR) have issued six
reports discussing the use of award fee contracts. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Air Force Audit Agency reports are not available over
the Internet.

GAO
GAO Report No. GAO-09-630, “Guidance on Award Fees Has Led to Better Practices but Is Not
Consistently Applied,” May 2009

GAO Report No. GAO-07-839, “DOD’s Lack of Adherence to Key Contracting Principles on
Iraq Oil Contract Put Government Interests at Risk,” July 2007

GAO Report No. GAO-06-66, “DOD Has Paid Billions in Award and Incentive Fees Regardless
of Outcomes,” December 2005

Air Force
AFAA Report No. F2008-0008-FC1000, “Effective Use of Award Fees on Service Contracts,”
September 11, 2008

SIGIR
SIGIR Report No. SIGIR-08-009, “Appropriate Award-Fee Conversion Scales Can Enhance
Incentive for Contractor Performance,” January 24, 2008

SIGIR Report No. SIGIR-05-017, “Award Fee Process for Contractors Involved in Iraq
Reconstruction,” October 25, 2005




                                              15 

Glossary
Award Fee. An award fee is an amount awarded for excellence in contractor
performance as measured by the criteria defined and established in the contract. The
award fee pool represents an additional amount available to the contractor to earn over
the period of performance that demonstrates quality efforts toward accomplishing the
tasks and functions cited in the contract.

Award Fee Determining Official. The AFDO is independent of the AFEB and
determines the amount of award fee earned during the evaluation period. The AFDO
becomes involved in the evaluation process only after the AFEB has met and agreed on a
recommended award fee amount. The AFDO independently evaluates the AFEB’s
recommendation and considers any contractor self-assessments provided to render a final
decision on the amount of award fee earned, if any.

Award Fee Evaluation Board. The AFEB is primarily responsible for review of the
performance monitors’ evaluations, the contractor’s self-evaluation, and any other
pertinent information for determining the overall position on the effectiveness of the
contractor’s performance. The AFEB is then responsible for documenting the findings
and recommending an earned award fee (if any) to the AFDO.

Award Fee Plan (AFP). The AFP articulates in one document the plan and the means
for identifying, assessing, and evaluating contractor performance for determining the fee
to be awarded. This document ensures the integrity of the award fee evaluation process.
A typical AFP includes the evaluation periods, amount of the award fee pool available for
each evaluation period; functional areas to be evaluated; criteria to be used in
evaluations; relative weights to be assigned to functional areas and the evaluation criteria;
and reporting and record keeping procedures.

Cost-Plus-Award-Fee Contract. A CPAF contract is a cost-reimbursement contract
that provides for a fee consisting of a base amount fixed at inception of the contract and
an award amount that the contractor may earn in whole or in part during performance and
that is sufficient to provide motivation for excellence in such areas as quality, timeliness,
technical ingenuity, and cost-effective management.

Indefinite-Delivery, Indefinite-Quantity Contract. An IDIQ contract provides for the
ordering of an indefinite quantity, within stated limits, of supplies or services during a
fixed period. The government places orders for individual requirements. An IDIQ
contract may be used when the government cannot predetermine above a specified
minimum the precise quantities of supplies or services required during the contract
period.

Performance Monitor. The performance monitor is the person(s) assigned by the
program manager to provide input to the AFEB on contractor performance. The assigned
COR normally assumes the responsibility of the performance monitor and provides input


                                             16 

to the AFEB on contractor performance. These individuals provide the continuous
evaluation of the contractor’s performance in specifically assigned areas of responsibility.

Task Order Contract. A task order contract is a contract for services that does not
specify a firm quantity of services to be procured (other than a minimum or maximum
quantity) and that provides for the issuance of orders for the performance of tasks during
the period of the contract.




                                            17 

THIS PAGE LEFT INTENTIONALLY BLANK






                18 

U.S. Army Corps of Engineers' Comments
 





                                              DEPARTMENT OF THE ARMY
                                                u.s.. ARMY CORPS OF ENOlNEERS
                                               DIRECTORATE Of CON'J1tACTlNO
                                     PRINCIPAL ASS\STANT RESPONSIBLE FOR COtmtACTtNG
                                                    WI Pri_ FI'IIdcriQc Drive
                                                     WIncbcsIcf, VA 226(12 .



        CECT-WIN                                                                               15 Jan 10


        Engineers                        7' .   *
        MEMORANDUM THRU Direct~NatiOnal Contracting Organi2ation, U.S. Army Corps of


        FOR Program Director, Acquisition and Contract Management, DoDlG, 400 Army Navy Drive,
        Arlington, VA 22202-4704
        SUBJECT, U.S. Anny Corps of Engineers (USACE) National Conncting Organization's
        response to Department of Defense Office of Jnspector General (DoDIG) draft report entitled,
        "U.s. Army Corps of Engineers' Use of Award Fees on Contracts in Iraq and Afghanistan",
        Project No. D2008-DOOOAE-02SI.OOO, dated December 24, 2009

        I. On 24 Dec 09, the DoDlG issued the above referenced draft report to the U.S. Army Corps of
        Engineers (USACE) National Contracting Organization (NCO) through the Principal Assistant
        Responsible for Contracting - Winchester (P ARC-WIN) which identified three internal control
        weaknesses in the award fee process at the Transatlantic Center (fAC), now referred to as the
        Middle East District (MED), and which also included a recommendation far the NCO, in
                                      Click to add JPEG file
        coordination with PARC-WIN, to establish standard operating policies and procedures for
        administering an effective award fee process in accordance with Federal Acquisition Regulation
        ft:quirements.

        2. The three internal control weaknesses identified in the subject draft report are as faHows:

           a. Develop adequate award fee plans for incentivizing and evaluating contractor performance

           b. Adequately conduct ovetSight and evaluation responsibilities

           c. Adequately document and support award fee ratings
        3. The NCO has taken aggressive action to remedy these internal cootrol weaknesses and ensure
        that all award fee contracts are properly administered. These remedies include the following:

            a. In January 2009. PARC-WIN put a moratoriwn on the use of award fee contracts. This
        required Contracting Officers to request approval to use an award fee type contrnct by submitting
        justification. including a cost-benefit analysis, for the use of this type of contract and evidence:: of
        ample resoW'CeS, including properly trained and experienced personnel, to administer the
        contract throughout the period of performance. As the fifteen task orders identified in the above
        referenced report were for contingency operations in Iraq and Afghanistan, PARe-WIN
        acknowledges that adequate resources were not consistently available to properly administer
         these task orders. By requiring evidence of these resources prior to approving Ihe use of an
         award fee type contract, PARC-WIN has significantly reduced the number of award fee contracts
U.S. Army Corps of Engineers' Comments
 





        and task orders in Iraq and Afghanistan.

           b. In October 2009, USACE stood up the Transatlantic Division which oversees the Middle
        East District. Gulf Region District - South, Gulf Region District, Afghanistan Engineering
        District - North and Afghanistan Engineering District - South. As 8 direct result, a Regional
        Contracting Chief (ReC) now has oversight of aU award fee contracts and award fee boards
        which are awarded and administered by these five districts. To date. all active award fee
        contracts and task o rders with a place ofperfonnance in Iraq and Afghanistan have award fee
        plans in place, proper oversight and documentation to support award fee ratings.

        4. Additiona1ly, the NCO and P ARC-WIN partially-concur with the recommendation set fonh in
        the above referenced draft report. USACE has existing policy and enterprise training in place in
        addition to the requirements in the Federal Acquisition Regulation and DoD, Army and USACE
        supplements to document the policies and procedures to properly administer an award fee
        contract Defense Procurement and Acquisition Policy (OPAP) and Deputy Under Secretary of
        Defense (Acquisition and Technology) previously issued memorandums which identify policies
        and procedures for the proper use and administration of award fee contracts. In December 2007.
        USACE issued Procurement Instruction Letter (PIL) 2008-03. "Proper Use of Award Fee
        Contracts and Award Fee Provisions" which references these previously issued memorandums
        and establishes agency policy for establishlng award fee criteria in the award fee plan. This PIL
        remains active; however, P ARC~WIN is currently in the process ofre~ing this PIL to include
        the requirement for a cost~benefit analysis to be performed prior to requesting approval for an
        award fee type contract, adequate resources to properly administer the contract and specific
        award fee training for all members of the award fee board, including the A ward Fee Determining
        Official (AFDO). In regards to award fee training, USACE bas a PROSPECT course entitled
        "Cost Reimbursement Contracts" which includes training on the proper administration of award
        fee contracts.

        5. The point of contact fo r this memorandum is Ms. Jackie Wolfe, who may be reached at (540)
        665-4057.


                                                               A.I   J,
                                                            CA;~d.BELLA
                                                                           f:J .   6P-
                                                            PrinC~~~istant Responsible
                                                             for Contracting - Winchester
